IN THE
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________

DALLAS WIMS,
Petitioner,
-vsUNITED STATES OF AMERICA,
Respondent.
__________________________________________________________________

PETITION FOR WRIT OF CERTIORARI
FROM THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
__________________________________________________________________

CHARLES G. WHITE, ESQ.
CHARLES G. WHITE, P.A.
Counsel for Petitioner
1031 Ives Dairy Road
Suite 228
Miami, FL 33179
Tel: (305) 914-0160
Fax: (305) 914-0166
Florida Bar No. 334170

QUESTIONS PRESENTED
1. WHETHER THE FIRST STEP ACT’S AMENDMENT
REDEFINING “SERIOUS DRUG OFFENSE” FOR PURPOSES
OF AN ENHANCEMENT FOR VIOLATIONS OF THE
CONTROLLED SUBSTANCE ACT (21 U.S.C. 801 ET SEQ) APPLIES TO
THE ACCA.(18 U.S.C. 924(E)(1).

2. WHETHER SENTENCING PETITIONER UNDER THE
ACCA VIOLATED THE EIGHTH AMENDMENT.

i
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________________________________
DALLAS WIMS,
Petitioner,
-vsUNITED STATES OF AMERICA,
Respondent.
__________________________________________________________________
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 12th day of March, 2021, in accordance
with Rule 33 of the Rules of the Supreme Court of the United States, copies of the
(1) Motion for Leave to Proceed in Forma Pauperis,
(2) Petition for Writ of Certiorari, and
(3) Certificate of Service,
were served upon the United States Attorney’s Office, 99 N.E. Fourth St., Miami,
FL 33128; and upon the Solicitor General, Department of Justice, Washington,
D.C. 20530, by mail.

/s/ Charles G. White
CHARLES G. WHITE, ESQ.
Counsel for Petitioner
1031 Ives Dairy Road, Suite 228
Miami, FL 33179
Tel: (305) 914-0160
Florida Bar No. 334170
i

TABLE OF CONTENTS
QUESTION PRESENTED

. . . . . . . . . . . . . . .

CERTIFICATE OF SERVICE
TABLE OF AUTHORITIES

i

. . . . . . . . . . . . .

ii

. . . . . . . . . . . . . .

v

INTRODUCTION

. . . . . . . . . . . . . . . . . . .

1

OPINIONS BELOW

. . . . . . . . . . . . . . . . . . .

1

STATEMENT OF JURISDICTION

. . . . . . . . . . . . .

1

CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . .

2

STATUTORY PROVISIONS . . . . . . . . . . . . . . . .

2

STATEMENT OF THE CASE

. . . . . . . . . . . . . . .

2

REASONS FOR GRANTING WRIT . . . . . . . . . . . . .

11

1. THAT THE FIRST ACT’S AMENDMENT TO THE DEFINITION OF
“SERIOUS DRUG OFFENSE” APPLIES TO THE ACCA
2. THAT APPLYING THE ACCA VIOLATED THE EIGHTH
AMENDMENT . .
. .
.
.
.
. .
. . . . 24
CONCLUSION

. . . . . . . . . . . . . . . . . . . . .
APPENDIX “1”

ii

18

TABLE OF AUTHORITIES
Page
CASES:
Harmelin v. Michigan,
501 U.S. 957, 111 S.Ct. 2680, 115 L.Ed.2d 836 (1991) .

.

25

Lockyer v. Andrade,
538 U.S. 63, 123 S.Ct. 1166, 155 L.Ed.2d 144 (2003)

.

.

24

Miller v. Alabama,
567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012) .

.

25

Reed v. United States,
139 S.Ct. 2776 (Mem) (2019)

.

.

.

.

.

.

.

.

26

Solem v. Helm,
463 U.S. 277, 103 S.Ct. 3001, 77 L.Ed.2d 637 (1983)

.

.

25

United States v. Baker,
850 F.2d 1350, 1372 (9th Cir. 1988)

.

.

.

.

28

United States v. Cardoza,
129 F.3d 6, 18 (1st Cir. 1997)

.

.

.

.

27

.

United States v. Coleman,
563 Fed. Appx. 740 (11th Cir. 2014) .
United States v. Crittendon,
883 F.2d 326, 331 (4th Cir. 1989)
United States v. Crews,
495 Fed. Appx. 36 (11th Cir. 2012)

iii

.

.

.

.

.

.

.

.

.

.

.

.

.

.

.

.

26

27

.

27

United States v. Dombrowski,
877 F.2d 520, 526 (7th Cir. 1989)

.

United States v. Edwards,
767 Fed. Appx. 546 (4th Cir. 2000) .

.

.

.

United States v. Helm,
502 F.3d 366, 368-69 (5th Cir. 2007) .
United States v. Hernandez,
145 F.3d 1433 (11th Cir. 1998)

.

.

.

.

.

.

.

.

.

.

United States v. Lyons,
403 F.3d 1248 (11th Cir. 2005) .
United States v. Jones,
559 F.3d 831 (8th Cir. 2009) .

.

.

.

.

.

.

.

22

.

.

.

.

27

27

.

.

9

.

27

.

.

.

.

.

.

.

20

United States v. McCray,
345 Fed. Appx. 498 (11th Cir. 2009) .

.

.

.

.

.

.

27

United States v. Morales,
893 F.3d 1360 (11th Cir. 2018)

.

.

.

.

.

.

.

.

26

United States v. Moreno,
933 F.2d 362 (11th Cir. 1990)

.

.

.

.

.

.

.

.

21

United States v. Pedigo,
879 F.2d 1315, 1320 (6th Cir. 1989)

.

.

.

.

.

27

United States v. Reed,
752 Fed. Appx. 851 (11th Cir. 2018)

.

.

.

.

.

.

26

United States v. Rollins,
518 Fed. Appx. 632 (11th Cir. 2013) .

.

.

.

.

.

.

27

United States v. Rudolph,
970 F.2d 467, 469-70 (8th Cir. 1992) .
iv

.

.

.

.

27

United States v. Shannon,
631 F.3d 1187 (11th Cir. 2011)

.

.

.

.

.

.

.

9

United States v. Smith,
798 Fed. Appx. 473 (11th Cir. 2000)

.

.

.

.

.

.

22

United States v. Theramene,
517 Fed. Appx. 789 (11th Cir. 2013)

.

.

.

.

.

.

27

United States v. Thompson/Center Arms Co.,
504 U.S. 505, 112 S.Ct. 2102, 119 L.Ed2d. 308 (1992) .

.

24

v

.

OTHER AUTHORITIES:
18 United States Code,
Section 922 . .
Section 924 . .

.
.

.
.

.
.

.
.

.
.

.
.

.
.

. . 4,7,21
. 4,6,7,8,11,12,15,21,23

21 United States Code,
Section 841 .
Section 802 .
Sections 846 .
Section 851 .

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

. 6,7
. 5,11,12,15,21,23
. 6
. 11,15,17,19,21,22,23

28 United States Code,
Section 2254
.

.

.

.

.

.

.

.

.

.

United States Constitution,
Amendment VIII
.

.

.

.

.

.

.

.

United States Sentencing Guidelines,
Section 3E1.1
. . . . .
Section 4A1.1
. . . . .
Section 4B1.1
. . . . .
Section 5C1.1
. . . . .

.
.
.
.

.
.
.
.

.
.
.
.

.
.
.
.

25

24,25,26,27,28,29

.
.
.
.

18,14
13,20
8,20,21
26

“Second Chance Act”. Pub.L. 110-199, 122 Stat. 657 (2008)
www.bop.gov/inmates/fsa/overview.jsp. . . . . 18
James E. Hooper,
Brightlines, Dark Deeds: Counting convictions under the
Armed Career Criminal Act, 89 MICH. L. REV. 1951, 1991,
https://repository.law.umich.edu/mlr/vol89/iss7/5. . 18

vi

INTRODUCTION

Petitioner, DALLAS WIMS, through counsel, hereby petitions for a Writ of
Certiorari from the United States Court of Appeals for the Eleventh Circuit which
affirmed the Judgment of the United States District Court for the Southern District
of Florida convicting and sentencing him for violations of Federal criminal law.
OPINION BELOW
The United States Court of Appeals for the Eleventh Circuit issued an
Opinion which has been reported at United States v. Dallas Wims, -- Fed.Appx- - ,
2020 WL 7040636 (11th Cir. Dec. 1, 2020). A copy of that Opinion is attached as
Appendix “1”.
BASIS OF JURISDICTION
DALLAS WIMS invokes the jurisdiction of this Court to hear final
judgments or decrees issued by United States Courts of Appeals pursuant to Title
28, United States Code, Section 1254 (1).

QUESTIONS PRESENTED

1. WHETHER THE FIRST STEP ACT’S AMENDMENT
REDEFINING “SERIOUS DRUG OFFENSE” FOR PURPOSES OF AN
ENHANCEMENT FOR VIOLATIONS OF THE CONTROLLED SUBSTANCE
ACT (21 U.S.C. 801 ET SEQ) APPLIES TO THE ACCA.(18 U.S.C. 924(E)(1).

2. WHETHER SENTENCING PETITIONER UNDER THE
ACCA VIOLATED THE EIGHTH AMENDMENT.

CONSTITUTIONAL PROVISIONS

AMEND. VIII, –PROHIBITION AGAINST CRUEL AND INHUMANE
PUNISHMENT

Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.

2

STATUTORY PROVISIONS

Title 18, United States Code, Section 922 (g)(1)
(g) It shall be unlawful for any person - (1) who has been convicted in any Court of, a crime punishable by
imprisonment for a term exceeding one year; ...
To ship or transport in interstate or foreign commerce, or possess in or affecting
commerce, any firearm or ammunition; or to receive any firearm or ammunition
which has been shipped or transported in interstate or foreign commerce.
Title 18, United States Code, Section 924 (e)(1)
(e)(1) In the case of a person who violates Section 922 (g) of this Title and
has three previous convictions by any Court referred to in Section 922 (g)(1) of this
Title for a violent felony or a serious drug offense, or both, committed on occasions
different from one another, such person shall be fined under this Title and
imprisoned not less than fifteen years...
(2) as used in this subsection - A. The term “serious drug offence” means - 3

(I) an offense under the Controlled Substances Act (21 U.S.C. 801 Et Seq),..
for which a maximum term of imprisonment of ten years or more is
prescribed by law; or (ii) an offense under state law involving manufacturing,
distributing or possessing with intent to manufacture or distribute a controlled
substance (as defined in Section 102 in the Controlled Substances Act) (21 U.S.C
802)), for which a maximum term or imprisonment of ten years or more is
prescribed by law;
(B) The term “violent felony” means any crime punishable by imprisonment
for a term exceeding one year, or any act of juvenile delinquency involving the use
or carrying a firearm, knife, or destructive device that would be punishable by
imprisonment for such term if committed by an adult, that - (I) has as an element the use, attempted use , or threatening use of physical
force against the person of another; or
(II) is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to
another...
Title 21, United States Code, Section 802 (57)
(57) The term “serious drug felony” means an offense described in Section
924(a)(2) of Title 18 for which - 4

(A) The offender serve a term of imprisonment of more than twelve months;
and
(B) The offenders release from any terms of imprisonment was within fifteen
years of the commencement of the instance offense.

STATEMENT OF THE CASE
On August 30, 2018, a Federal Grand Jury sitting in Miami, Florida, returned
an Indictment against the Petitioner, DALLAS JEROME WIMS, and his son,
Dallas Jerome Wims, Jr. (DE.3) Both were charged with Conspiracy to Possess
with Intent to Distribute Controlled Substances from on or about July 18, 2017, to
on or about November 8, 2017, in violation of 21 U.S.C., Sections 846 and
841(a)(1) (Count 1), and Possession with Intent to Distribute Controlled
Substances on October 27, 2017, in violation of 21 U.S.C., Section 841(a)(1)
(Count 4). Petitioner was charged by himself for Possession with Intent to
Distribute Controlled Substances on July 18, 2017, in violation of 21 U.S.C.,
Section 841(a)(1) (Count 2), Possession of a Firearm in Furtherance of a DrugTrafficking Crime on July 18, 2017, in violation of 18 U.S.C., Section
924(c)(1)(A)(i) (Count 3), Possession of a Firearm in Furtherance of a Drug5

Trafficking Crime on October 27, 2017, in violation of 18 U.S.C., Section
924(c)(1)(A)(i) (Count 5), and Possession of a Firearm by a Convicted Felon on
October 27, 2017, in violation of 18 U.S.C., Sections 922(g)(1) and 924(e)(1)
(Count 7). Wims, Jr., was charged separately with Possession of a Firearm in
Furtherance of a Drug-Trafficking Crime on October 27, 2017, in violation of 18
U.S.C., Section 924(c)(1)(A)(i) (Count 6), and Possession with Intent to Distribute
Controlled Substances on November 8, 2017, in violation of 21 U.S.C., Sections
841(a)(1) and 841(b)(1)(C) (crack cocaine) (Count 8).
On April 16, 2019, Petitioner pled guilty to Counts 3 and 7, pursuant to a
written Plea Agreement. The Plea Agreement contained joint recommendations to
the Court as follows:
9. Sentencing Guidelines: (1) That, with respect to Count 7,
the applicable Sentencing Guidelines for the offense is 4B1.4;
(2) That the Defendant used or possessed a firearm or ammunition
in connection with a controlled substance offense, resulting in a
Base Offense Level of 34; and (3) That the Defendant used or
possessed a firearm or ammunition in connection with a controlled
substance offense, resulting in Criminal History Category of VI.
10. Final Offense Level: That, with respect to Count 7, the
applicable Adjusted Level under all of the circumstances of the
offense committed by the Defendant, including after the 3-level
reduction for Acceptance of Responsibility, his Level 31, with an
Advisory Sentencing Range of 188-235 months in prison.

6

After accepting the guilty pleas, the District Court ordered the U.S. Probation
Office to prepare a Pre-Sentence Investigation Report (hereinafter “PSI”).
On page 8, para. 29, of the PSI, it was recommended that Petitioner “is an
Armed Career Criminal and was subject to an enhanced sentence under the
provisions of 18 U.S.C., Section 924(e) (ACCA), pursuant to Section 4B1.4(a).”
The three qualifying prior convictions that were either a “serious drug
offense” under Section 924(a)(2)(A) or a violent felony” under Section
924(a)(2)(B) were not identified. The PSI did not apply the Guidelines for the
ACCA. See, U.S.S.G., Section 4B1.4.
The PSI also recommended that Petitioner be considered a Career Offender
according to Section 4B1.1(a), because he had at least two prior felony convictions
of either a crime of violence or a controlled substance offense. The two prior cases
were identified as 1996CF13778 (see, PSI, p. 13, para. 44), and F98-30348 (see,
PSI, p. 15, para. 48). As a Career Offender, Appellant’s Base Offense Level would
be 37, and his Criminal History VI. He would be entitled to a 3-level reduction, for
Acceptance of Responsibility pursuant to U.S.S.G., Section 3E1.1, that would
result in an Adjusted Offense Level of 34. The Probation Office recommended an
Advisory Guideline Range of 262-327 months. Since Count 7 carried a five-year

7

consecutive sentence, the Advisory Guideline Range was from 322 to 387 months.
See, PSI, p. 24, para. 96.
On June 3, 2019, Petitioner filed the first of many Objections to the PreSentence Investigation Report (DE.62). Petitioner noted that the two priors relied
upon by the Probation Officer as qualifying offenses for the Career Offender
designation were cocaine trafficking offenses under Florida law. Pursuant to
United States v. Hernandez, 145 F.3d 1433 (11th Cir. 1998), and United States v.
Shannon, 631 F.3d 1187 (11th Cir. 2011), these predicate offenses did not meet the
definition of a “controlled substance offense” for purposes of both the Career
Offender and provisions of Section 4B1.4 and the ACCA (DE.62.3).
In his Addendum to PSI, the Probation Officer agreed, citing Shannon. The
Career Offender enhancement was deleted, although the Criminal History points
from the two cases were applied to Petitioner’s Criminal History score.
Since the two trafficking cases had not qualified as Controlled Substance
Offenses sufficient to satisfy an enhancement for Career Offender or the ACCA,
the Probation Office recommended that other prior convictions could be used as
controlled substances offenses under the ACCA. However, because these
convictions were old, no Criminal History points could be applied to them, and
they could not be used to sentence Petitioner as a Career Offender under Section
8

4B1.1(a). Nonetheless, the PSI identified the following State cases qualified to
support any enhancement under the ACCA as qualified predicates.
(A) F89-0597 (PSI, p. 9, para. 34):
Presumably, the Probation Office designated Counts 2 and 3,
which charged aggravated assault with a deadly weapon as a
‘serious violent felony’. Although Petitioner was originally
placed on Community Control, it was revoked, and he was
sentenced to 13 months imprisonment. He was released by
1991. Petitioner’s release from prison was 27 years prior to
the offense date.
(B) F95-27864 (PSI, p. 12, para. 41):
Petitioner was charged with possession of crack cocaine with
intent to sell. He was sentenced to five months in jail, and was
released in 1996. The Sentence was imposed concurrent with
F95-220232 and F95-32360 (PSI, p. 11, para. 40). Petitioner’s
release from jail was 21 years prior to the offense date.
(C) F95-32360 (PSI. p. 12, para. 42):
Petitioner was convicted of possession of crack cocaine with
intent to distribute (Count 1), and resisting a police officer
with violence (Count 2). He was adjudicated guilty and
sentenced to five months in jail to run concurrent with
F95-22023 and F95-27864. Petitioner’s release from jail
was 21 years prior to the offense date.
(D) F96-9054 (PSI, p. 13, para. 43):
Petitioner was arrested for possession with intent to distribute
crack cocaine. He was sentenced to 90 days in jail in 1996.
Petitioner’s release from jail was 20 years prior to the offense
date.

(E) F97-10903 (PSI, p. 14, para. 45):
Petitioner was arrested for possession with intent to distribute
9

crack cocaine. He was sentenced to 30 days in jail in 1997.
Appellant’s release from jail was 20 years prior to the offense
date.
(F) F97-20016 (PSI, p. 15, para. 37):
Petitioner was arrested for the sale, manufacture or delivery of
crack cocaine. He was adjudicated guilty and sentenced to
366 days in State prison concurrent with F97-18143 in 1998.
Appellant’s release from jail was 19 years prior to the offense
date.
On June 19, 2019, Petitioner filed a Response to the Addendum to the PSR
(sic) and Additional Objections to the PSR. Petitioner stated that he did not qualify
for the ACCA enhancement because the prior convictions were more than 15 years
prior to the offense date, and/or the time he served was less than 12 months
(DE.70.2). Petitioner’s position was based upon his reading of the First Step Act
(“FSA”), Section 401.
On December 21, 2018, the First Step Act. Pub.L.No. 115-391, 132 Stat.
5194 (2018) became effective. It amended the Controlled Substances Act, 21
U.S.C., Section 802, by incorporating the definition for “serious drug felony”
described in Section 924(a)(2) to replace “felony drug offense” for purposes of
enhancement under 18 U.S.C., Section 851. 21 U.S.C., Section 802 (57) that
Amendment and now states:

10

(57) The term ‘serious drug felony’ means an offense described in
Section 924(a)(2) of Title XVIII for which–

(A) The offender serve a term of imprisonment of more than
12 months; and
(B) The offender’s release from any term of imprisonment was
within 15 years of the commencement of the instant offense.
Section 924(a)(2)(A)(ii) defines the term “serious drug offense” for State cases that
qualify under Section 802.
The convictions listed in paragraph (B), (C), (D), (E), and (F) above, were
drug offenses. All of these fell outside the 15-year window, and therefore should
not have been counted as predicate offenses for imposing liability under the
ACCA.
On September 11, 2019, the Petitioner filed what he styled Defendant’s
Supplemental Response to the Addendum to the PSI, and additional Objections
thereto. In it, Petitioner further explained why he did not qualify for enhanced
sentencing under the ACCA. He also challenged the three (3) points assessed for
his conviction in Case No. F96-13778B, PSI, p. 13, para. 44. This was one of the
trafficking offenses that the Probation Office and the Government
had conceded did not qualify as a “serious drug offense” for determining whether
he was a Career Offender or eligible under the ACCA. Petitioner alleged that the
11

three points should not have been assessed because he would have finished serving
his sentence over 15 years before the date of the offense, had he not had a Violation
of Probation filed on July 15, 1997, that was never served on him until March,
2009. Petitioner documented how he was prosecuted twice on other charges in the
Miami-Dade Criminal Courthouse while the Probation Violation Warrant was
pending, but due to the negligence of the Florida Department of Corrections, it was
never brought before the Court. It was only after Petitioner wrote a letter to the
Judge in February, 2009, was he brought to Court, served with the Warrant, and
found to have violated his Probation. Since his Probation was revoked and he was
sentenced to prison within 15 years of the offense date, he received three Criminal
History points. Appellant objected to the Probation Office’s position that the
existence of the unserved Warrant tolled the time for purposes of assessing the look
back provisions of Section 4A1.1. At Sentencing, this Objection was sustained
(DE.96.11). Petitioner had only three (3) Criminal History points and was in a
Criminal Category II.
Two days later, the Government filed a Response. The Government prefaced
its support for the recommendations in the PSI with a warning to Petitioner that
continuing to pursue the ACCA Objection would constitute a violation of the Plea
Agreement. The Government threatened to file a Motion to Withdraw the Guilty
12

Plea based on that violation. Petitioner chose to pursue his Objection
notwithstanding the Government’s threat. The Government never sought to set
aside the Plea Agreement.
According to the Petitioner, if he did not qualify for the ACCA
Enhancement, his Base Offense Level would be Level 14, minus a 2-level
reduction for Acceptance of Responsibility Pursuant to U.S.S.G., Section 3E1.1,
for an Adjusted Offense Level of 12. The Court determined he had three (3)
Criminal History points for a Criminal History Category II. Petitioner’s Advisory
Guideline Range would be 12-18 months in Zone C as to Count 7. He would still
face a 5-year consecutive Sentence for Count 3.
On September 13, 2019, Petitioner appeared for Sentencing before U.S.
District Judge Kathleen M. Williams. The Government renewed its threat to seek a
withdrawal of the guilty plea, should the Court decide against its position on the
ACCA Enhancement. Petitioner responded that either he was eligible under the
ACCA or he was not, and if he was not eligible, then he could not become eligible
pursuant to a Plea Agreement (DE.96.15-16). The Court never made a decision on
the Government’s “objection” because the Government asked the Court to move
forward with the Sentencing.

13

The District Court overruled Petitioner’s Objection to being sentenced under
the ACCA. The Court stated as follows:
. . . I do not think the First Step Act amended 924. I think it
specifically references 851 enhancements. I think it is written to
use the 924(a)(2) as a starting point. But then it says after you
have defined your crime in that way–you have the additional
circumscribed and factor of sentencing for the 851 enhancement.
I have reviewed the First Step Act in other contexts; people who
are doing time under the mandatory Guidelines. And I think in
resentencing it gives the Court some broad leeway, but I am not
to read an Amendment into 924 because of the language of the
First Step Act.
The Court sentenced Petitioner to 180 months as to Count 7, and 60 months
as to Count 3 to be served consecutively for a total sentence of 240 months. Upon
release from prison, Petitioner would be on Supervised Release for five years.
Petitioner filed a Direct Appeal from his sentence to the U.S. Court of
Appeals for the Eleventh Circuit. He raised the identical two issues for which he
seeks this Court review by way of Certiorari. On December 1, 2020, The Eleventh
Circuit affirmed the sentence. United States v. Dallas Wims, - - Fed.Appx.- - 2020
WL 7040636 (11th Cir. Dec. 1., 2020).
Petitioner’s enhancement under the ACCA was based on predicate offences
that would not have supported an enhancement under Section 851. The result was
a mandatory minimum sentence that far exceeded the Advisory Sentencing range as
calculated with reference to the Federal Sentencing Guidelines.
14

The principles of law which permitted this to happen, and have justified their
harsh application were derived from a “get tough” approach to the War on Drugs.
Last year, thousands of people took to the streets to protest the consequences of the
mass incarceration of minorities particularly African Americans. The First Step
Act was promulgated to remedy the draconian application of enhancements for
drug offenses. The passage of this law demonstrated a shifting in the approach the
nation wanted to take. Mandatory minimum sentences that fail to take into account
the individual; characteristics of the offense and the offender not only implicates
the Eighth Amendment, but serves to rob the system of justice of the legitimacy it
needs to remain a positive force in particularly minority communities.
Supreme Court Rule 10 ( c) permits this Court to exercise its discretion to
grant a Writ of Certiorari when “ a States Court or a United States Court of Appeals
has decided an important question of federal law that has not been, but should be,
settled by this Court...”.
The questions presented herein have yet to be decided by this Court. Given
the events of the last year, and the evolution of thinking that has compelled a
reexamination of our Constitutional values, it is time for this Court to address the
questions presented in this Petition. See, ABA Standards for Criminal Justice:
Sentencing (3d ed 1994): Standard 18-2.4 (“the legislature should ensure that
15

maximum authorized levels of severity of sentences and presumptive sentences are
consistent with rational, civilized, and humane values. Sentences authorized and
imposed, taking into account the gravity of the offenses, should be no more severe
than necessary to achieve the societal purposes for which they are authorized.);
Standard 18-3.21(b) (“ a legislature should not prescribe a minimum term of total
confinement for any offense.”)

REASONS FOR GRANTING THE WRIT
ISSUE I
THAT THE FIRST STEP ACT’S AMENDMENT
TO THE DEFINITION OF “SERIOUS DRUG OFFENSE”
APPLIES TO THE ACCA.

The First Step Act, Pub.L. No. 115-391, 132 Stat. 5194 (2018), was signed
into law by President Trump on December 21, 2018. It was the most significant
reform of Federal criminal law since the Fair Sentencing Act of 2010. A
bipartisan coalition of Congressmen worked to ameliorate the draconian
sentences that were mandated by law for repeat narcotics offenders under 21
U.S.C., Section 851 as well as make the 18:1 ratio between crack and powder
cocaine authorized by the Fair Sentencing Act retroactive. As stated on the
website for the Bureau of Prisons, “[u]nder the Act, the system provides guidance
on the type, amount, and intensity of recidivism reduction programing and
16

productive activities to which each prisoner is assigned, including information on
which programs prisoners should participate in based on their criminogenic
needs.” The aim was to reduce recidivism and give Federal inmates a second
chance. www.bop.gov/inmates/fsa/overview.jsp. Many of these reforms were
based on an expanded “Second Chance Act”. Pub.L. 110-199, 122 Stat. 657
(2008). The stated aim of this legislative effort is to reduce recidivism, and
relieve the effects of mass incarceration caused by the mandatory application of
the Sentencing Guidelines, and recidivist statutes such as Section 851. Appellant
contends that Congress intended to extend this principle to the ACCA. See also,
James E. Hooper, Brightlines, Dark Deeds: Counting convictions under the
Armed Career Criminal Act, 89 MICH. L. REV. 1951, 1991,
https://repository.law.umich.edu/mlr/vol89/iss7/5/. (“To implement the ACCA,
prosecutors and judges must apply the statutes criminal history standard to
accurately distinguish career criminals from ordinary offenders. . . If Courts
interpret the standard too narrowly and fail to identify a large number of offenders
who will in fact commit serious crimes again, the law will have little effect on
crime. On the other hand, if Courts interpret the standard too broadly and capture
offenders who probably would not commit serious crimes again–‘false positives’
who are not really career criminals–then other problems will result. Judges will
17

sentence misclassified offenders to unjustly harsh terms, which will further
stretch prisons resources for no good reason.”
Legal scholars have begun to cast doubt on the efficacy of recidivist
statutes based on prior convictions, particularly in narcotics cases. Sarah French
Russell, Rethinking Recidivist Enhancements: The Role of Prior Drug
Convictions in Federal Sentencing, 43 U.C. DAVIS L. REV., 1135 2008,
lawreview.law.ucdavis.edu/issues/43/4/articles/43-4, russell.pdf. Ms. Russell
introduces her treatise as follows:
This Article considers the policy rationales supporting recidivist
enhancements and reexamines them in light of two recent Supreme
Court cases, United States v. Booker and Shepard v. United States.
Recidivist enhancements are traditionally justified based on
rationales of retribution, deterrence, and incapacitation; proponents
justify recidivist enhancements on the theory that people who reoffend are more culpable and more likely to recidivate. There is
considerable doubt, however, regarding whether these rationales
support the expansive Federal enhancements currently tied to prior
drug convictions.
Prior to the enactment of the First Step Act, a person charged with a Title
21 narcotics offense could be enhanced pursuant to 21 U.S.C., Section 851, if
they had prior “felony drug offenses”. If the offender had one or more prior
“felony drug offense”, the maximum penalty as well as minimum mandatories
would be increased depending upon the quantity of controlled substance alleged
in the Indictment. For purposes of Section 851, a “felony drug offense” was
18

defined as “an offense that is punishable by imprisonment for more than one year
under any law of the United States or of a state or foreign country that prohibits
or restricts conduct relating to narcotics, drugs, marijuana, anabolic steroids, or
depressant or stimulant substances.” 21 U.S.C., Section 802(44). No element of
trafficking or distribution was required. Simple possession of the controlled
substance would apply as long as it was a felony. United States v. Jones, 559
F.3d 831 (8th Cir. 2009).
The pre-First Step Act version of Section 851 did not require that the
qualifying “felony drug offense” qualify as a prior conviction pursuant to
U.S.S.G., Section 4A1.1. This created the very real possibility that narcotics
offenders could see their sentence substantially enhanced, up to and including a
mandatory life sentence based upon felony possession of drug cases that had
occurred decades earlier. That could occur, even if the offender did not qualify as
a Career Offender pursuant to Section 4B1.1, because the prior convictions were
too remote.
The ACCA, would apply a 15-year minimum mandatory as well as an
enhanced sentence pursuant to Section 4B1.4, if the offender was convicted of
possession of a firearm in violation of 18 U.S.C., Section 922(g), and had three
“serious drug offenses” or “violent felonies”, under Section 924(e)(2). Pursuant
19

to subsection (ii), a “serious drug offense” means “an offense under state law,
involving manufacturing, distributing, or possessing with intent to manufacture or
distribute, a controlled substance (as defined in Section 102 of the Controlled
Substances Act (21 U.S.C., 802)), for which a maximum term of imprisonment of
10 years or more is proscribed by law.” Historically, a “serious drug offense”
under the ACCA could be one outside the time limitations in Section 4A1.1.
United States v. Moreno, 933 F.2d 362, 373-4 (11th Cir. 1990). Simple
possession of a controlled substance, even if it be a felony, would not qualify as a
“serious drug offense.” Thus, an offender could be determined to qualify as an
Armed Career Criminal based upon remote prior convictions, and then pursuant
to Section 4B1.4(c)(2), given a Criminal History Category VI.
In the First Step Act, the term “felony drug offense” defined in Section
802(44) was replaced by “serious drug offense” as defined in Section 802(57) for
purposes of enhancement under Section 851. It further determined that only
those “serious drug offenses” where the offender had been incarcerated for at
least 12 months and/or had finished their sentence within 15 years of the date of
the offense would qualify. The question before the Court is whether these
limitations should apply to the use of a “serious drug offense” as a predicate to
the imposition of liability under the ACCA.
20

The District Court ruled that the First Step Act had put limitations only on
what constituted a “serious drug offense” for purposes of Section 851, and not the
ACCA. This Circuit, and other Courts, have agreed. See, e.g., United States v.
Smith, 798 Fed. Appx. 473 (11th Cir. 2000); United States v. Edwards, 767 Fed.
Appx. 546 (4th Cir. 2000).
Nonetheless, Petitioner contends that allowing the predicate convictions
that cannot be used to enhance his Criminal History score, qualify him as a Career
Offender or under Section 851to enhance his sentence violates both the letter and
the spirit behind the First Step Act, and implicates the Eighth Amendment as
applied to Petitioner’s case. See, Issue II, infra.
In the 1980’s, Congress wanted to toughen sentencing for narcotics
offenses to address what was perceived as an epidemic of drug trafficking. The
various minimum mandatory sentences imposed in narcotics cases, the Federal
Sentencing Guidelines and the ACCA were reactions to the crisis of drug
violence and drug trafficking in primarily poor, usually minority neighborhoods
in the inner cities. As Federal law enforcement dismantled urban drug
distribution organizations and gangs, the percentage of minority youth,
particularly African-Americans, who had either served time in prison or been on
some form of Probation or Supervised Release increased dramatically. Mass
21

incarceration caused by the application of these draconian statutes did not solve
the underlying social and economic problems, but arguably made them worse.
America, the Land of the Free, set a worldwide record for incarcerating its own
citizens.
In the 2000’s, a recognition that mass incarceration was not the answer
gained traction. Reform was a bipartisan effort, and the First Step Act was its
latest reform.
If the First Step Act only applied to Section 851 enhancement, then the
ACCA is the only recidivist statute remaining in the Federal Criminal Code that
permits the use of prior convictions older than 15 years before the offense date. If
Congress intended to modify Section 924(e)(2) to only apply to offenders who
have served imprisonment for more than 12 months within 15 years of the offense
date for purposes of Section 851, what sense would it make for that same
modification not to apply to the ACCA? Was it an oversight or an intentional
omission? Does a plain reading of the Statute eliminate the ambiguity?
A Panel of this Court has held that “because [ ] the plain and unambiguous
language of Section 401(a)(1) amends only the CSA [Controlled Substances Act
(21 U.S.C., Section 802)”], it does not amend Section 924(e)(2). Smith, 798
Fed.App., at 476. But is it really unambiguous in the context of the reform
22

represented by the First Step Act? Petitioner says the First Step Act created an
ambiguity that invokes the Rule of Lenity.
When there is an ambiguity remaining after all of the traditional rules of
statutory construction have been employed, the Court must resolve the ambiguity
in favor of excusing the violator of that Statute from suffering the consequences
of the law. United States v. Thompson/Center Arms Co., 504 U.S. 505, 517-18,
112 S.Ct. 2102, 2109-10, 119 L.Ed2d. 308 (1992). The so-called Rule of Lenity
should be applied on Petitioner’s behalf. His Sentence should be reversed, and
remanded to the District Court for Resentencing as a defendant ineligible for
enhancement under the ACCA.

ISSUE II
THAT APPLYING THE ACCA VIOLATED THE EIGHTH
AMENDMENT.
The U.S. Supreme Court in Lockyer v. Andrade, 538 U.S. 63, 123 S.Ct.
1166, 155 L.Ed.2d 144 (2003), affirmed a sentence of two consecutive terms of
25 years to life in prison under California’s Career Criminal Punishment Act, also
known as the Three Strikes Law, based on prior convictions for two counts of
petit theft was neither contrary to, nor an unreasonable application of, clearly
23

established Federal law as it related to the Eighth Amendment. Since Andrade
was a Federal habeas review of a State conviction under 28 U.S.C., Section
2254(d)(1), the Court had to determine whether there was any clarity at all in its
prior decisions on the Eighth Amendment. Justice O’Connor, writing for the
Court, observed that “[t]hrough this thicket of Eighth Amendment jurisprudence,
one governing legal principle emerges as ‘clearly established’ under Section
2254(d)(1): A gross disproportionality principle is applicable to sentences for
terms of years.” Id., at 123 S.Ct., at 1172. See also, Solem v. Helm, 463 U.S. 277,
103 S.Ct. 3001, 77 L.Ed.2d 637 (1983) (the Eighth Amendment prohibits not only
barbaric punishments, but also sentences that are disproportionate to the crime
committed); Harmelin v. Michigan, 501 U.S. 957, 111 S.Ct. 2680, 115 L.Ed.2d
836 (1991) (imposition of mandatory sentence of life in prison without possibility
of parole without any consideration of mitigating factors did not constitute cruel
and unusual punishment; severe, mandatory penalties can be cruel, but they are
not unusual in the constitutional sense). But see, Miller v. Alabama, 578 U.S.
Miller v. Alabama, 567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012)
(mandatory life imprisonment without parole for those under the age of 18 at the
time of their crimes violates the Eighth Amendment’s prohibition on cruel and
unusual punishment).
24

Petitioner’s 15-year sentence under the ACCA was disproportionate to the
criminal conduct he was being punished for in Count 7. Without the ACCA, he
was facing an Advisory Guideline Sentencing Range of 12-18 months of
incarceration in Zone C. In Zone C, the District Court would have had the option
of sentencing him to a term of incarceration, half in jail and half on home
detention. See, U.S.S.G., Section 5C1.1(d).
Petitioner acknowledges that the Eleventh Circuit has upheld sentences
under the ACCA against an Eighth Amendment challenge, but none of them appear
to have been as disproportionate as his. His case is distinguishable from other cases
in this Circuit that have addressed Eighth Amendment challenges to the ACCA.
See, e.g., United States v. Morales, 893 F.3d 1360, 1371 (11th Cir. 2018)
(defendant’s argument that possession of a firearm by a convicted felon is
“relatively minor in nature” rejected); United States v. Reed, 752 Fed. Appx. 851
(11th Cir. 2018) (Eighth Amendment not violated because Court failed to account
for defendant’s mental disabilities). certiorari granted, judgment vacated on other
grounds, Reed v. United States, 139 S.Ct. 2776 (Mem) (2019); United States v.
Coleman, 563 Fed. Appx. 740 (11th Cir. 2014) (use of juvenile adjudications to
qualify defendant for sentencing under ACCA for crime committed when he was
22 years old not violative of Eighth Amendment); United States v. Rollins, 518
25

Fed. Appx. 632 (11th Cir. 2013) (existence of substantial mitigation does not
render sentence under ACCA a violation of the Eighth Amendment); United States
v. Theramene, 517 Fed. Appx. 789 (11th Cir. 2013) (sentence of 240 months was
not grossly disproportionate to drug trafficking and firearms offenses, as would
violate Eighth Amendment, where defendant’s initial career offender Sentencing
Guidelines range was 360 in prison to life, the District Court downwardly departed
and varied from Guideline range). United States v. Crews, 495 Fed. Appx. 36
(11th Cir. 2012) (predicates were violent felony convictions); United States v.
Lyons, 403 F.3d 1248 (11th Cir. 2005) (same); United States v. McCray, 345 Fed.
Appx. 498 (11th Cir. 2009) (rejected defendant’s argument that his possession of
firearm was “innocent”, which rendered sentence under ACCA in violation of
Eighth Amendment).
Petitioner concedes that every jurisdiction that has considered the issue has
agreed that the mandatory minimum sentence required by the ACCA does not
violate the Eighth Amendment. United States v. Helm, 502 F.3d 366, 368-69 (5th
Cir. 2007); United States v. Cardoza, 129 F.3d 6, 18 (1st Cir. 1997); United States
v. Rudolph, 970 F.2d 467, 469-70 (8th Cir. 1992); United States v. Crittendon, 883
F.2d 326, 331 (4th Cir. 1989); United States v. Pedigo, 879 F.2d 1315, 1320 (6th
Cir. 1989); United States v. Dombrowski, 877 F.2d 520, 526 (7th Cir. 1989);
26

United States v. Baker, 850 F.2d 1350, 1372 (9th Cir. 1988). Despite the
unanimity of the decisions on this issue by the Courts of Appeals, this Court should
still undertake to analyze the issue in light of the reevaluation of the impact the
ACCA has on perpetuating social injustice.
Petitioner properly raises a proportionality issue under the Eighth
Amendment based not on his conduct in the instant offense, for which under the
Federal Sentencing Guidelines he would be subject to an Advisory Guideline
Range from 12-18 months, but the nature of the predicate offenses, his age when he
was convicted and their remoteness. Petitioner is being punished for criminal
activity that had occurred so far in his past as to be irrelevant, at least in terms of
the calculation of Criminal History under the Federal Sentencing Guidelines, but
for his possession of a gun.
At the time of the offense, Petitioner was 46 years old. The predicate
offenses that could be lawfully applied to his sentencing under the ACCA were all
over 19 years in his past. The earliest, Case No. 89-CF-0597 (page 9, para. 34),
which charged aggravated assault with a deadly weapon, was committed when he
was 18 years old. From September 6, 1995, until September 3, 1998, when
Appellant was age 23 to 26, he was successfully prosecuted for five qualifying
“serious drug offenses”. It violates the Eighth Amendment to enhance a sentence
27

by over eightfold because of his criminal activity committed in his twenties, all of
which were more than 19 years old.
Petitioner was also charged with possession of controlled substances on July
18 and October 27, 2017. If the Government had filed an Information under
Section 851, none of the narcotics predicates from the 1990’s would have counted.
This is because of the application of the First Step Act.
It is not enough to say that Petitioner’s current case could be construed as a
continuation of the drug crimes he committed in his twenties. That may have been
a good reason for an upward variance. It is not a justification for permitting a
mandatory minimum sentence of 15 years to be imposed based upon prior
convictions that are so remote in time as to earn no criminal history points, and
could not used to enhance his sentence as a Career Offender or under Section 851.
Not counting convictions older than 15 years or ones where the defendant served
less than twelve (12) months in jail made sense to the authors of the Federal
Sentencing Guidelines and the Congressmen who passed the First Step Act.
Utilizing those same predicates to impose a 15-year mandatory minimum sentence
under the ACCA violated the Eighth Amendment.

28

CONCLUSION
Upon the arguments and authorities aforementioned, Petitioner requests this
Court accept certiorari in this case.
Respectfully submitted,

/s/ Charles G. White
CHARLES G. WHITE, ESQ.
Charles G. White, P.A.
Counsel for Petitioner
Member of the Supreme Court Bar
1031 Ives Dairy Road, Suite 228
Miami, FL 33179
Tel: (305) 914-0160
Fax: (305) 914-0166
E-mail: cgwhitelaw@aim.com
Florida Bar No. 334170

29

